                                                                        NATIONAL SCIENCE FOUNDATION
                                                                         OFFICE OF INSPECTOR GENERAL
                                                                           OFFICE OF INVESTIGATIONS

                                                           CLOSEOUT MEMORANDUM

               Case Number: I 03120076
                                                                                                 r      *
                                                                                                                 Page 1 of 1



                       On November 6,2003, a Division ~irector'forwarded an e-mail to OIG that contained ,,
                       allegations of misuse of NSF funds. The e-mail from an individual2previously associated with
                       the award identified several concerns including the use of current award funds to cover previous
                       budget deficits, lack of ship maintenance and an alleged coverup of faulty accounting practices.

                       Interviews of the complainants and the Program Officer were conducted and identified that the
                       university had conducted an audit in response to the allegations prior to NSFYsinvolvement. The
                       university was contacted and a copy of the audit report was requested. This report found no
                       evidence to support the complainant's allegations.

                       Based on the information received from the Program Officer, the findings of the internal audit
                       and the lack of any credible information to support complainant's allegations, there is no need for
                       any further action regarding this matter.

                       Accordingly, this case is closed.




                       I
         '.
A
    k-
     A


         -    NSF OIG Form 2 (11/02)                       ..   t   i                                   1   -L         -   +   ,   I
